          U.S. ENVIRONMENTAL PROTECTION AGENCY
          OFFICE OF INSPECTOR GENERAL



                                         Catalyst for Improving the Environment


Hotline Report




        Results of
        Hotline Complaint Review
        of EPA Region 9 Hiring under the
        Federal Career Intern Program
        Report No. 10-P-0112

        April 26, 2010
Report Contributors:                           Rick Beusse
                                               Hilda Canes Garduño
                                               Kevin Good
                                               Julie Narimatsu




Abbreviations

EPA          U.S. Environmental Protection Agency
FCIP         Federal Career Intern Program
OARM         Office of Administration and Resources Management
OIG          Office of Inspector General
OPM          U.S. Office of Personnel Management
SOP          Standard Operating Procedure
SSC          Shared Service Center
                       U.S. Environmental Protection Agency 	                                               10-P-0112
                                                                                                         April 26, 2010
                       Office of Inspector General


                       At a Glance
                                                                            Catalyst for Improving the Environment

Why We Did This Review             Results of Hotline Complaint Review of EPA Region 9
We received a Hotline              Hiring under the Federal Career Intern Program
complaint that alleged abuse of
authority regarding how the         What We Found
U.S. Environmental Protection
Agency (EPA) Region 9              The specific Hotline allegations against Region 9 were unsubstantiated, but we
conducted hiring under the         found that the Region engaged in a prohibited personnel practice.
Federal Career Intern Program
(FCIP). Based on the               Neither the U.S. Office of Personnel Management (OPM) nor EPA prohibits the
complaint, we sought to            use of a job fair and registration code as recruiting and hiring methods. Also,
determine whether (1) the
                                   neither OPM nor EPA requires a minimum number of days for performing
Region’s use of a job fair and
registration code was              applicant intake. Therefore, the specific allegations were unsubstantiated.
inappropriate, and (2) opening a
vacancy announcement for only      However, Region 9 engaged in a prohibited personnel practice by giving four
4 calendar days (2 business        FCIP job fair participants improper advantages not provided to others attending
days) denied potential             the job fair. Records show that these four individuals were favored for hire and
applicants the opportunity to      offered paid travel to the FCIP job fair by Region 9 before the fair or vacancies
apply for the positions.           were publicly announced. The EPA Human Resources Shared Service Center in
                                   Las Vegas (Team Vegas), which took over hiring authority for Region 9 in early
Background                         2009, considers pre-employment interview travel to be appropriate only after
EPA Region 9 held a job fair in    applicants have been qualified and listed on a selection certificate – processes
San Francisco on July 28-30,       that occur after a job fair is held and candidates have submitted their job
2009. EPA provided only job        applications. Region 9 also arranged for these four individuals to participate in
fair participants with the         interviews and meetings with regional officials during the job fair – advantages
registration code needed to        not provided to others attending the fair. Three of the four individuals were
apply for the four FCIP            subsequently hired for this vacancy announcement; the fourth was hired by
vacancies. The associated
                                   Region 9 under a different announcement. We concluded that Region 9 used a
vacancy announcement was
open from Friday, July 31, to      legitimate job fair recruitment method to mask hiring persons favored by
Monday, August 3, 2009. The        management. We also believe Team Vegas’s oversight of Region 9’s hiring
FCIP has few requirements,         activities related to this job fair was insufficient.
allowing flexibility in
recruiting, but agencies must       What We Recommend
still meet Merit System            We recommend that EPA’s Region 9 Administrator take appropriate
Principles.
                                   administrative actions against the individuals who engaged in a prohibited
                                   personnel practice in violation of Merit System Principles. Region 9 did not
For further information, contact   agree with the report’s conclusions and its comments were not responsive to our
our Office of Congressional,
                                   recommendation. We are referring this matter to the U.S. Office of Special
Public Affairs and Management
at (202) 566-2391.                 Counsel. We also recommend that the Assistant Administrator for
                                   Administration and Resources Management (1) require that job fair plans
To view the full report,           (outreach, notice, application process) be approved by a senior management
click on the following link:       official hosting the job fair, and (2) verify that Shared Service Center oversight
www.epa.gov/oig/reports/2010/      processes are sufficient to provide reasonable assurance that EPA does not
20100426-10-P-0112.pdf             engage in prohibited personnel practices. Although positive, the Agency’s
                                   comments did not address these recommendations, which remain unresolved.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL


                                          April 26, 2010

MEMORANDUM

SUBJECT:               Results of Hotline Complaint Review of EPA Region 9
                       Hiring under the Federal Career Intern Program
                       Report No. 10-P-0112


FROM:	                 Wade T. Najjum
                       Assistant Inspector General for Program Evaluation

TO:                    Jared Blumenfeld
                       Regional Administrator, EPA Region 9

                       Craig E. Hooks
                       Assistant Administrator for Administration and Resources Management


This is a final Hotline report on the subject evaluation conducted by the Office of Inspector
General (OIG) of the U.S. Environmental Protection Agency (EPA). This report contains
findings that describe the problems the OIG has identified and corrective actions the OIG
recommends. This report represents the opinion of the OIG and does not necessarily represent
the final EPA position. Final determination on matters in this report will be made by EPA
managers in accordance with established audit resolution procedures. EPA Region 9 and the
Office of Administration and Resources Management provided comments to our draft report.
The OIG evaluated these comments and, where appropriate, made necessary changes in this
report. We have included the response and the OIG’s evaluation in Appendix B.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $219,573.

Action Required

In accordance with EPA Manual 2750, EPA’s Audit Management Process, you are required to
provide a written response to this report within 90 calendar days. Region 9’s response should
include a corrective action plan and planned completion dates for Recommendation 1. The
Office of Administration and Resources Management should submit a correction action plan and
planned completion dates for Recommendations 2 and 3. We have no objection to the further
release of this report to the public. This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact me at (202) 566-0832
or najjum.wade@epa.gov, or Rick Beusse at (919) 541-5747 or beusse.rick@epa.gov.
Results of Hotline Complaint Review of EPA Region 9                                                                              10-P-0112
Hiring under the Federal Career Intern Program




                                         Table of Contents 

Purpose .............................................................................................................................   1


Background .......................................................................................................................       1        


             Federal Career Intern Program ............................................................................                 1

             Team Vegas and Region 9 Responsibilities in Implementing FCIP .....................                                        1


Scope and Methodology ..................................................................................................                 2        


Results of Review .............................................................................................................          3        


             Region 9’s Use of a Job Fair and Registration Code Was Allowed .....................                                       3

             Region 9’s Use of a Limited Open Vacancy Period Was Allowed........................                                        3

             Region 9 Engaged in a Prohibited Personnel Practice ........................................                               4

             Team Vegas Did Not Provide Sufficient Oversight of 

                  Region 9’s Hiring Activities.........................................................................                  6


Conclusions ......................................................................................................................       7        


Recommendations............................................................................................................              7        


Agency Comments and OIG Evaluation .........................................................................                             8        


Status of Recommendations and Potential Monetary Benefits....................................                                            9        




 Appendices 

    A        Team Vegas and Region 9 Recruiting Responsibilities .................................                                      10    


    B        Agency Response to the Draft Report and OIG Evaluation ...........................                                         11    


    C        Distribution .........................................................................................................     17    

                                                                                                      10-P-0112



Purpose
The Office of Inspector General (OIG) of the U.S. Environmental Protection Agency (EPA)
receives Hotline complaints of fraud, waste, and abuse within EPA programs and operations.
These complaints include allegations of mismanagement or violations of law, rules, or
regulations by EPA employees or program participants. In August 2009, the OIG received a
Hotline complaint alleging abuse of authority with respect to how EPA Region 9 recently
conducted hiring under the Federal Career Intern Program (FCIP). The complaint involved an
FCIP job fair that Region 9 held in San Francisco, California, on July 28-30, 2009. Only FCIP
job fair participants received a registration code, which had to be supplied online to apply for one
of the four FCIP vacancies. The associated vacancy announcement (Reg 9-OT-2009-0009) was
open from Friday, July 31, to Monday, August 3, 2009. Based on the complainant’s allegations,
our objectives were to determine whether Region 9’s:

    •	 use of a job fair and registration code was inappropriate, and
    •	 opening a vacancy announcement for only 4 calendar days (2 business days) denied
       potential applicants the opportunity to apply for the positions.

Background
Federal Career Intern Program

The FCIP was established by Executive Order 13162 on July 6, 2000. The program’s goal is to
help federal agencies recruit and attract exceptional men and women for a variety of occupations.
The program is a minimum of 2 years, with interns typically hired at General Schedule (GS)
grades 5, 7, or 9. The FCIP is designed not only to attract qualified individuals, but also to help
train, develop, and convert them into career or career-conditional appointments.

Compared to the competitive examining process – the government’s long-established hiring
method – the FCIP has few eligibility and procedural requirements, giving agencies substantial
flexibility in recruiting, assessing, and selecting career interns. For example, FCIP vacancies
need not be publicly announced via USAJOBS;1 stringent rating and ranking of applicants are
not required; and agencies have options in how to apply veterans’ preference rules. However,
this flexibility does not relieve an agency’s obligations to avoid prohibited personnel practices
and abide by the Merit System Principles. The Merit System Principles are based on the public’s
expectations of a civil service that is efficient; effective; fair; open to all; free from political
interference; and staffed by honest, competent, and dedicated employees.

Team Vegas and Region 9 Responsibilities in Implementing FCIP

In February 2009, EPA Region 9 human resources functions were consolidated within the Las
Vegas Shared Service Center (Team Vegas). Team Vegas was one of three Shared Service
Centers (SSCs) established by EPA’s Office of Administration and Resources Management in

1
  USAJOBS.com is the official job site of the U.S. Federal Government. Applicants can apply for a job by
responding to a job vacancy announcement posted online.


                                                        1

                                                                                         10-P-0112



June 2008 to process personnel and benefits actions for EPA employees, including vacancy
announcements. Prior to the consolidation, Region 9 had conducted FCIP recruiting and hiring
in-house, using a job fair strategy that largely avoided the use of USAJOBS. Upon
consolidation, Team Vegas assumed all hiring authority and Region 9 came under the control
and oversight of the Team Vegas SSC.

Team Vegas had already established standard operating procedures for recruiting FCIP applicants
and provided these procedures to Region 9. The SSCs’ Federal Career Intern Program (FCIP)
Recruitment Standard Operating Procedure (SOP) identifies different recruiting methods to be
used, depending on the number of vacancies and applicants expected to apply. For instance, if
there is only one vacancy, qualifications may be done by Team Vegas staff on-site at a job fair
held for potential applicants. In contrast, if there are several vacancies, the Agency is encouraged
to use an automated method, employing USAJOBS.

The SSCs’ Customer Service Standards outline the SSCs’ responsibilities, including
“uphold[ing] Merit System Principles” and “work[ing] in partnership with supervisors/managers
to ensure merit principles and regulatory requirements are met.” Appendix A lists Team Vegas
and Region 9 responsibilities when recruiting and hiring. As the senior executive in Region 9,
the EPA Regional Administrator also has an obligation to prevent prohibited hiring and
recruiting practices by Region 9 supervisors, managers, and staff.

Scope and Methodology
We conducted our review from September 2009 to February 2010 in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform our
review to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our objectives.

To accomplish our objectives, we reviewed documents provided by the complainant, Region 9,
and Team Vegas. We conducted interviews with relevant EPA Region 9 staff in San Francisco
and EPA Team Vegas staff in Las Vegas, Nevada. We independently obtained and reviewed
communications between and among Region 9 and Team Vegas managers and staff related to the
July 28-30, 2009, job fair and the associated vacancy announcement, including the travel
vouchers for the individuals who were paid travel to attend the job fair. We contacted each of
the universities to which Region 9 sent flyers promoting the July 28-30 job fair to confirm
whether they received the flyer and the amount of advance notice they received. We also
obtained and reviewed the public law, federal policies, and Agency guidance pertaining to FCIP
hiring and pre-employment travel compensation. These included, but were not limited to:

   •   Title 5 U.S. Code, Section 2301, Merit System Principles
   •   Title 5 U.S. Code, Section 2302, Prohibited Personnel Practices
   •   Title 5 U.S. Code, Section 5706b, Interview Expenses
   •   Executive Order 13162, Federal Career Intern Program
   •   5 Code of Federal Regulations Parts 213 and 315, Final Rule, August 2, 2005
   •   Federal Travel Regulations – Part 301-75


                                                 2

                                                                                         10-P-0112



   •	 U.S. Office of Personnel Management (OPM) Hiring Process Model
   •	 EPA’s 2002 Human Resources Policy Bulletin, No. 213-5, Federal Career Intern 

      Program

   •	 EPA’s 2008 Human Resources Policy Bulletin, No. 08-007B, Quality Assurance in the
      Hiring Process
   •	 EPA’s 2008 Shared Service Centers Human Resources Standard Operating Procedure,
      SSC-Recruitment-04-300, Federal Career Intern Program (FCIP) Recruitment Standard
      Operating Procedure (SOP)
   •	 EPA’s 2008 Shared Service Centers Human Resources Standard Operating Procedure,
      SSC-Recruitment-02-300, Recusal Procedures for Recruitment
   •	 EPA’s 2008 Human Resources Shared Service Center (SSC) Customer Service Standards
   •	 EPA’s 1995 Resources Management Directives, 2550B, Travel Manual
   •	 U.S. Merit Systems Protection Board’s 2005 report, Building a High-Quality Workforce:
      The Federal Career Intern Program

Results of Review
Region 9’s Use of a Job Fair and Registration Code Was Allowed

The allegation that Region 9’s use of a job fair and registration code was inappropriate was
unsubstantiated. Neither OPM nor EPA prohibits the use of a job fair and registration code for
recruiting and hiring. OPM does not administer the FCIP, leaving the development and
implementation of the FCIP to individual agencies. To administer the FCIP, agencies must
describe, in writing, how the program will be implemented, including how it will accept
applications and evaluate and select applicants. EPA’s three SSCs collaborated to create the
Agency’s 2008 FCIP SOP that describes the processes and methods all regions should follow.
One of five recruiting methods outlined in the FCIP SOP is the use of a job fair where “job fair
participants are given a registration code for identification when applying for the FCIP position.”

For each recruiting effort, it is Team Vegas’s responsibility to work with regional
supervisors/selecting officials to develop vacancy announcements. Prior to the July job fair,
Team Vegas prepared a flyer that underwent several revisions following communications with
Region 9. The original flyer contained a registration code and no requirement to attend the job
fair. However, Region 9 human resources staff believed they would receive too many
applications and subsequently removed the registration code from the flyer. Region 9 human
resources staff were concerned that they might be inundated with phone calls from applicants
requesting the registration code, so Region 9 decided to conduct a job fair at its EPA San
Francisco offices where it would distribute the registration code. Attendance at the job fair was
mandatory for anyone interested in applying for the FCIP vacancies, since it represented the only
opportunity to obtain the registration code required to apply.

Region 9’s Use of a Limited Open Vacancy Period Was Allowed

The allegation that Region 9’s decision to keep the vacancy announcement open for only
4 calendar days (2 business days) denied potential applicants the opportunity to apply for these
positions was unsubstantiated. OPM does not require a specific number of days for performing


                                                 3

                                                                                       10-P-0112



applicant intake. According to OPM, the time a vacancy announcement remains open is
determined by “the nature of the position and the competency need.” There is no minimum
period required. Similarly, EPA’s FCIP SOP allows for EPA supervisors and human resources
staff to determine “the length of time the vacancy announcement will be open”; again, there is no
minimum period required.

Region 9 Engaged in a Prohibited Personnel Practice

Region 9 management engaged in a prohibited personnel practice by giving four candidates
improper advantages. Under Section 2302 (b) of Title 5 U.S. Code, it is a prohibited personnel
practice to “grant any preference or advantage not authorized by law, rule, or regulation to any
employee or applicant for employment (including defining the scope or manner of competition
or the requirements for any position) for the purpose of improving or injuring the prospects of
any particular person for employment.” Records show that four prospective FCIP job applicants
– three of whom were subsequently hired for this vacancy announcement – were provided
improper advantages not offered to others who attended the job fair. These advantages included
offers of paid travel to the job fair and participation in interviews and meetings with regional
officials while they were in San Francisco for the job fair. The fourth prospective FCIP job
applicant was subsequently hired by Region 9 under a different vacancy announcement. The
evidence that these four individuals were to be the hires from the job fair before it was
announced was substantial.

We concluded Region 9 management used a legitimate job fair recruitment method to mask
hiring persons who were favored by management. While public promotion of the Region 9 job
fair did not begin until July 24, 2009, evidence shows that by July 1, 2009, Region 9 managers
were improving four particular candidates’ prospects for employment by:

   • inviting them to the upcoming – and as yet unannounced – job fair, 

   • offering to reimburse them for travel expenses to attend the job fair, 

   •	 authorizing and paying for travel expenses for three candidates’ trips to San Francisco,
      and
   •	 arranging and conducting pre-employment interviews before the job fair was announced.

Title 5 of the U.S. Code makes giving unauthorized preference or improper advantage a
prohibited personnel practice in federal hiring. Records show that these candidates were selected
before the job fair was announced. For example, a Region 9 selecting official confirmed in a
July 21 e-mail that final decisions regarding three of the four future hires were made before the
July 28-30 job fair had been announced:

       We have held final interviews with all three water candidates and their presence
       at the event was merely to address the procedural requirement put in place as
       agreed to with Team Vegas… namely, we stand ready to proceed and to
       recommend offering them employment at EPA, Region 9….

The three candidates referenced in the July 21 e-mail were later hired by Region 9.




                                                4

                                                                                                          10-P-0112



Records also show that Region 9 arranged for the four FCIP job applicants to participate in
“final” pre-employment interviews before the job fair was announced. In a July 23 e-mail,
several Region 9 managers confirmed a day-long itinerary for the four favored candidates for
July 28 (day one of the job fair), including lunch with the Region 9 managers. In a July 8 e-mail
– more than 2 weeks before the job fair was announced and nearly 3 weeks before it was held – a
Region 9 selecting official informed colleagues that she had contacted one of the four favored
candidates to let the candidate “know of our interest” and that this “would complete our
interview and proposed selections for the three [positions] in Water.” In a July 10 e-mail, the
same Region 9 selecting official told colleagues that she and one of the favored candidates
discussed a potential August start date for the candidate; the candidate was later hired by the
Region. In another example of providing improper advantage, a Region 9 selecting official
informed one of the four favored candidates in a July 21 e-mail that the recruitment process was
undergoing some changes and alerted the candidate that the candidate would need to apply
through USAJOBS, so she suggested that the candidate get a head start by registering in
USAJOBS. In a July 25 e-mail, a Region 9 human resources staff member expressed concern
that Team Vegas’s approach to the job fair may not allow them to hire the four favored
candidates and this staff member did not:

         …want to risk losing the candidates we want to hire (3 in Water and 1 in the Lab)
         who may get blocked by veterans via USAJOBS if we keep following [Team
         Vegas’s] path.

Generally, EPA is not authorized to pay for travel expenses for non-federal employees. One
exception to this rule applies to pre-employment interviews. Title 5 of U.S. Code, Section
5706(b) states, that:

         An individual being considered for employment by an agency may be paid travel
         or transportation expenses under this subchapter for travel to and from pre-
         employment interviews determined necessary by the agency.

While 18 prospective FCIP job applicants attended the July job fair, Region 9 management
offered to pay travel expenses to only the 4 favored candidates. We sought travel expense
information for all 18 prospective FCIP job applicants. Travel expenses were only paid for three
of the four favored candidates.2 Two of the three favored individuals who received EPA funds
were later hired, while the third did not complete an application for these vacancies but was later
hired by Region 9 under a different hiring authority. The fourth favored individual who was
offered travel at Region 9’s expense and later hired did not use EPA travel funds. The “Purpose
Description” on one of the travel authorizations was “job interview”; the other authorizations did
not include travel purpose codes. When we questioned Region 9 staff about the purpose of the
travel, they maintained the travel was not to ensure that the candidates would be present at the
job fair (to obtain the requisite registration code) but rather to conduct “final” pre-employment
interviews. The Region’s offering and paying for travel for only these candidates, prior to a
vacancy announcement being made public, is further evidence Region 9 management engaged in
a prohibited personnel practice by giving unauthorized preference or improper advantage.

2
 We identified three travel authorizations and three travel vouchers, but these were only for the favored candidates.
We confirmed with Region 9 that travel expenses were only paid for three of the four favored candidates.


                                                          5

                                                                                       10-P-0112





On pre-employment travel, the Federal Travel Regulations and Title 5 U.S. Code simply state
that travel expenses may be paid for pre-employment interviews so long as it is “necessary” or in
the “best interest of the Government.” Agency guidance on what constitutes pre-employment
interview travel is lacking. According to Team Vegas, EPA typically pays for pre-employment
travel expenses for an interview only for those candidates who are on selection certificates. Yet
in this case, Region 9 offered pre-employment travel to four prospective FCIP candidates before
the vacancies were announced. EPA’s FCIP SOP does not clearly address when travel should be
paid in the FCIP recruiting process or the procedures required to assure that, if provided, FCIP
applicants are treated equitably and fairly. Paid travel to San Francisco was not extended to
other prospective job applicants. In our view, it is improper to authorize travel expenses for a
pre-employment interview when the associated job vacancy has yet to be made public.
Region 9’s paying for travel for a select few individuals is further indication that the Region 9
management gave unauthorized preference or improper advantage to favored candidates.

Team Vegas Did Not Provide Sufficient Oversight of Region 9’s Hiring Activities

EPA’s Team Vegas, with whom hiring authority rested in this case, did not properly oversee
Region 9’s recruiting and job fair process.

       Team Vegas Did Not Prevent Abuse of FCIP Hiring Authority

       As the hiring authority, Team Vegas has an obligation to prevent prohibited personnel
       practices by the regions it supports. However, Team Vegas did not sufficiently oversee
       Region 9’s recruitment activities associated with the July 28-30 job fair. According to
       SSC guidance, Team Vegas must “work in partnership with supervisors/managers to
       ensure merit principles and regulatory requirements are met.” Yet, in interviews with
       Team Vegas staff, they said the regions are solely responsible for outreach and
       management of job fairs while Team Vegas helps to implement the process. This is
       contrary to SSC guidance. We noted that in a July 7 e-mail, Team Vegas advised
       Region 9 Human Resources to publicly distribute the job fair flyer no later than the end
       of that week (i.e., no later than July 10) for the “job fair at the end of the month.”
       However, Region 9 did not send out the original flyers for the vacancy announcements to
       universities and individuals until Friday, July 24. Further, Region 9 made changes to the
       flyer during the weekend, including deleting the original registration code from the flyer
       and adding the requirement that attendance at the job fair would be necessary to obtain a
       registration code. Region 9 did not distribute the revised flyer to universities until
       Sunday, July 26, or 2 days before the start of the July 28-30 job fair.

       The FCIP SOP does not define what constitutes proper outreach for a job fair or the
       number of days of advance notice needed. However, announcing a job fair shortly before
       it is held limits the number of people who will attend. Weeks before the July 28-30 job
       fair, Region 9 management’s favored candidates were notified of the job fair and invited
       to travel to the Region at public expense. In our opinion, Region 9 management abused
       the authorities allowed under FCIP and the job fair was simply a pretense to hire favored
       candidates.



                                                6

                                                                                         10-P-0112



       Team Vegas Did Not Confirm Region 9’s Outreach Efforts

       The FCIP SOP states that Team Vegas, as the SSC hiring authority, must determine
       whether a sufficient pool of applicants has been obtained. The July 28-30 job fair was the
       second recruiting effort coordinated between Team Vegas and Region 9. An earlier June
       2009 FCIP job fair was sparsely attended. Concerned about outreach for the July job fair,
       Team Vegas asked Region 9 to provide a list of contacts to whom Region 9 sent the July
       job fair flyer. Team Vegas independently contacted the six universities to which the flyers
       were sent to verify whether they had received the flyer. Only two responded and, of those
       two, only one verified that it had received the flyer. Team Vegas did not follow up with
       the other universities or Region 9 regarding the poor outreach and response.

Conclusions
The specific allegations that Region 9’s use of a job fair and registration code was not
appropriate, and that the limited open vacancy announcement period denied potential applicants
the opportunity to apply for the positions, were unsubstantiated. These hiring and recruitment
methods are not prohibited under FCIP authority. However, Region 9 engaged in a prohibited
personnel practice by giving four candidates improper advantages in violation of Merit System
Principles. Even if a desired candidate is exceptionally qualified, manipulation of the hiring
system is a prohibited personnel practice when done to help or harm a particular candidate. The
actions of Region 9’s managers and staff gave unauthorized preference and improper advantage
to favored candidates. Region 9’s outreach and promotion of the July job fair undermined the
FCIP’s purpose of providing “for the recruitment and selection of exceptional employees for
careers in the public sector.” Despite having earlier concerns about sparse attendance and
outreach, Team Vegas did not provide sufficient oversight of Region 9’s administration of the
job fair process.

Recommendations
We recommend that EPA’s Region 9 Administrator:

   1. 	 Take appropriate administrative actions against the individuals who engaged in a 

        prohibited personnel practice in violation of Merit System Principles. 


We recommend that the Assistant Administrator for Administration and Resources Management:

   2. 	 Require that job fair plans (outreach, notice, application process) be approved by a senior
        management official hosting the job fair.

   3. 	 Verify that SSC oversight processes are sufficient to provide reasonable assurance that
        EPA does not engage in prohibited personnel practices in its outreach, recruiting, and
        hiring activities.




                                                7

                                                                                        10-P-0112



Agency Comments and OIG Evaluation
The Office of Administration and Resources Management (OARM) and Region 9 said they
agreed with our findings that the original basis of the hotline complaint was unfounded, but
disagreed with our conclusion that the Region had engaged in a prohibited personnel practice by
giving four candidates improper advantages in violation of Merit System Principles.

   •	 For Recommendation 1, Region 9 does not believe it violated Merit System Principles
      when it hired three Region 9 Water Division FCIP candidates and one Lab candidate.
      The OIG disagrees. The draft report portrayed an accurate representation of the facts and
      properly applied the criteria provided in the Merit System Principles, resulting in the
      conclusion that the actions of Region 9’s managers and staff gave unauthorized
      preference and improper advantage to favored candidates – a prohibited personnel
      practice.

   •	 For Recommendation 2, OARM plans to convene a cross-Agency workshop to review
      the Agency’s FCIP SOPs, identify the essential elements to be included in FCIP
      recruitment plans, and review how such information is used by the SSCs, regions, and
      program offices in their FCIP outreach and recruitment activities. OARM’s response did
      not address the recommendation, which was to establish accountability for oversight of
      job fairs. Absent accountability, there is no assurance that changes will be implemented
      and followed.

   •	 For Recommendation 3, OARM plans to work with regional senior leadership to
      strengthen the SSC oversight role in processing FCIP appointments. OARM’s response
      does not address the recommendation that OARM verify that SSC oversight processes
      provide a reasonable assurance that EPA does not engage in prohibited personnel
      practices in its outreach, recruiting, and hiring activities.

Because Region 9 did not agree that it engaged in a prohibited personnel practice and its
comments were not responsive to Recommendation 1, we are referring this matter to the
U.S. Office of Special Counsel. Although positive, OARM’s comments did not specifically
address Recommendations 2 and 3. As such, these recommendations remain open pending our
receipt of the Agency’s proposed corrective actions, including estimated completion dates. The
Agency’s complete written response to the draft report, and our evaluation of the response, are in
Appendix B.




                                                8

                                                                                                                                         10-P-0112



                                 Status of Recommendations and
                                   Potential Monetary Benefits
                                                                                                                               POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                             BENEFITS (in $000s)

                                                                                                                   Planned
    Rec.    Page                                                                                                  Completion   Claimed    Agreed To
    No.      No.                          Subject                         Status1        Action Official             Date      Amount      Amount

     1        7     Take appropriate administrative actions against the     U        Region 9 Administrator
                    individuals who engaged in a prohibited personnel
                    practice in violation of Merit System Principles.

     2        7     Require that job fair plans (outreach, notice,          U       Assistant Administrator for
                    application process) be approved by a senior                       Administration and
                    management official hosting the job fair.                        Resources Management

     3        7     Verify that SSC oversight processes are sufficient      U       Assistant Administrator for
                    to provide reasonable assurance that EPA does                      Administration and
                    not engage in prohibited personnel practices in its              Resources Management
                    outreach, recruiting, and hiring activities.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                9

                                                                                                           10-P-0112


                                                                                                      Appendix A

Team Vegas and Region 9 Recruiting Responsibilities
                     Team Vegas                                                     Region 9
For all recruiting efforts:                                    For all recruiting efforts:
  • Receive complete recruitment package                         • Submit recruitment package to Team Vegas
  • Work with supervisors/selecting officials to develop            (including SF-52, position description, etc.)
     job analyses, EZhire questions, and vacancy                 • Select job fair venue, date, and time, if applicable
     announcements
  • Post vacancy announcements
  • Respond to questions from regional/program offices
     and applicants
  • Review applications and check for eligibility
  • Perform qualification analyses on eligible
     applications
  • Perform quality assessment of applications
  • Provide notice of results to applicants to provide
     disposition of applications
  • Discuss hiring requirements with supervisors/
     selecting officials
  • Issue selection certificates
  • Advise supervisors/managers and apply pay setting
     guidance (review/approval of appointment above the
     minimum requests, recruitment/relocation incentives,
     retention incentives, Student Loan Repayment
     Program requests, etc., if applicable)
  • Extend preliminary and official job offer(s), code
     SF-52s for entrance-on-duty
                         In addition, if using one of the following FCIP recruiting methods…
Nationwide announcement on USAJOBS – open to the public:
  • Post vacancy announcement on USAJOBS for 3 to                • Obtain announcement approval by supervisor
     5 days                                                      • Promote vacancy
Job Fair #1: Announcement on USAJOBS – open only to job fair attendees:
  • Post vacancy announcement on USAJOBS for                     • Obtain announcement approval by supervisor
     3 days                                                      • Promote job fair and vacancy
  • Attend job fair, if needed
Job Fair #2: No Announcement on USAJOBS – applicant qualifications determined manually at the job fair by
the SSC:
  • Coordinate travel/job fair logistics                         • Coordinate travel/job fair logistics
  • Perform on-site qualifications determinations and            • Promote job fair and vacancy
     certification                                               • Supervisor, regional/program representative
                                                                    conducts interviews at the job fair to expedite
                                                                    selection
Job Fair #3: Employment opportunity flyer posted at the college/university – no announcement on USAJOBS
– applicant qualifications are determined manually by the SSC:
                                                                 • Supervisor approves employment opportunity flyer
                                                                 • Regional/program office coordinates with
                                                                    college/university to post flyer
Job Fair #4: General outreach at job fairs by Regional/Program representative(s) – announcement on
USAJOBS:
  • Post vacancy announcement on USAJOBS for 3 to                • Supervisor approves announcement
     5 days                                                      • Advance regional/program office notifications sent
                                                                    to applicants on the USAJOBS announcement
Source: OIG analysis of EPA Human Resources (HR) Shared Service Center (SSC) Customer Service Standards,
July 2008.




                                                          10
                                                                                         10-P-0112



                                                                                     Appendix B

   Agency Response to the Draft Report and OIG Evaluation

MEMORANDUM

SUBJECT:      Response to Draft OIG Report Project No. OPE-FY-09-0019
              (Results of Hotline Complaint Review of EPA Region 9 Hiring under the Federal
              Career Intern Program)

FROM:         Craig E. Hooks
              Assistant Administrator
              Office of Administration and Resources Management

              Jared Blumenfeld
              Regional Administrator
              Region 9

TO:           Bill Roderick
              Acting Inspector General
              Office of the Inspector General

              Wade T. Najjum
              Assistant Inspector General for Program Evaluation
              Office of the Inspector General

       The Office of Administration and Resources Management (OARM) and EPA Region 9
appreciate the opportunity to review and comment on the draft findings related to a hotline
complaint concerning Federal Career Intern Program (FCIP) hiring procedures. The FCIP is a
valuable recruitment and hiring tool for the Agency; one which we believe we have used
judiciously and appropriately. While we do concur with the Office of the Inspector General’s
(OIG’s) findings that the original basis of the hotline complaint was unfounded, we strenuously
disagree with the subsequent findings and proposed recommendation for administrative actions.

 OIG Response: OARM’s and Region 9’s comments are nonresponsive to the facts in the
 draft report. The candidates we identified were not chosen from a previous selection
 certificate. In order to be hired for these FCIP positions, individuals had to attend the Region
 9 job fair, apply through a USAJOBS announcement, qualify, and be listed by Team Vegas
 on a selection certificate. To be eligible to apply for the positions for which they were
 selected, the individuals had to attend the July 28-30, 2009, job fair. On July 27, the senior
 leadership of Region 9 was informed by Region 9 Human Resources (HR) that they were
 paying for these candidates to attend the job fair and would be spending time with them to
 provide one-on-one instruction on applying formally through USAJOBS. In fact, Region 9
 also arranged for these four individuals to participate in interviews and meetings with



                                                11 

                                                                                         10-P-0112




 regional officials, including selecting officials, during the job fair. Region 9 did not do this
 for the other attendees at the job fair. Following the update to Region 9, some senior
 leadership expressed concern that the “targeted” recruitment approach was geared to
 excluding those not in the targeted group, noting that this approach “is doing exactly what we
 should be avoiding.”

 Our review of the records shows that Region 9’s actions resulted in giving improper
 advantages. Region 9 manipulated the hiring system to help four particular candidates. The
 Region notified the four favored candidates about the job fair and the as-yet-unannounced
 vacancies far in advance of the event. The Region also took measures to ensure their
 presence at the job fair. The Region did not follow Team Vegas’s advice to publicly
 distribute the job fair flyer announcing the FCIP positions no later than July 10. Instead, the
 Region publicly announced the job fair on Friday, July 24 – 2 business days before the event.
 The original job fair flyer contained the USAJOBS registration code and no requirement for
 attendance at the job fair to apply. The Region reissued the job fair flyer on Sunday, July 26
 with no registration code and the requirement that candidates must attend the job fair to apply.
 The Region 9 human resources staff said they did that because they believed they would
 receive too many applications and might have been inundated with phone calls. In our
 opinion, the Region’s actions virtually guaranteed that other attendees would be local and few
 in number. As a result, it significantly improved the likelihood that the four preferred
 candidates would be qualified and listed by Team Vegas on a selection certificate.



Recommendation 1: Take appropriate administrative actions against the individuals who
engaged in a prohibited personnel practice in violation of Merit System Principles.

        We do not believe that the Agency violated Merit System Principles when it hired three
Region 9 Water Division FCIP candidates and one Lab candidate. Contrary to the draft OIG
report, the Agency did not give “preferential treatment” to the four candidates who were
ultimately hired after a July 28, 2009, job fair. A more comprehensive set of interviews would
have shown that these candidates were part of an initial pool of 200. These candidates had been
recruited, screened, interviewed several times, and reference-checked, following Merit System
Principles, prior to their attendance at the job fair.

        It is permissible to manage FCIP recruitments on a “rolling basis,” and full consideration
was given to all candidates from both the initial pool and the new job fair pool. Selections were
made from both pools. The candidates from the initial pool were reached appropriately and were
subjected to extensive screening, including multiple rounds of interviews. Thus, for those
candidates interviewed before the job fair, the Agency had already satisfied Merit System
Principles. The new candidates who attended the job fair were subject to Merit System
Principles applied through the USA JOBS process by the Las Vegas Shared Service Center. The
Lab candidate was ultimately hired as a disabled individual under the Schedule A hiring
authority.




                                                12 

                                                                                        10-P-0112




 OIG Response: Region 9’s comments are nonresponsive to the facts in the draft report. OIG
 does not take exception to Region 9 knowing who they would prefer to hire. However, we do
 take exception to giving unauthorized advantages to preferred candidates to help ensure the
 preferred candidates are available to be selected. That is the prohibited personnel practice
 identified in the report. As discussed above, the unauthorized advantages were
 communicated to Region 9 senior leadership, who did not curtail it. Since the Agency’s
 comments are nonresponsive to the recommendation, the OIG is referring this matter to the
 U.S. Office of Special Counsel.

 Further, we disagree with the Agency’s assertion that Region 9 did not engage in a prohibited
 personnel practice when it gave four candidates improper advantages. The Region’s offer to
 pay for travel prior to the July 28-30, 2009, job fair was an advantage not offered to others
 who attended the job fair or who may have wanted to apply. Collectively, these actions
 improved the prospects of some candidates and injured the prospects of other candidates at
 the job fair. As stated in our draft report, under Title 5, U.S. Code, Section 2302(b), it is a
 prohibited personnel practice to:
         grant any preference or advantage not authorized by law, rule, or regulation to any
         employee or applicant for employment (including defining the scope or manner of
         competition or the requirements for any position) for the purpose of improving or
         injuring the prospects of any particular person for employment.

 A week before the job fair the selecting official said final interviews had already been held
 with all three water candidates. The official said that the candidates’ presence at the event
 was merely to address the procedural requirement put in place as agreed to with Team Vegas
 and the official was ready to recommend offering them employment at Region 9. Although
 Team Vegas, as the sole hiring authority, is tasked with issuing selection certificates and
 extending preliminary and official job offers, weeks before the job fair the Region was
 already discussing a start date with one of the four candidates (in effect, extending a
 preliminary job offer). Consequently, we disagree with the Agency’s assertion that “full
 consideration” was given to all candidates who attended the July 28-30 job fair. This
 recommendation remains unresolved.

Recommendation 2: Require that job fair plans (outreach, notice, application process) be
approved by a senior management official hosting the job fair.

        Given the concern that has been raised, the Agency does not want there to be even an
appearance of pre-selection in its use of the FCIP authority. In support of this recommendation,
OARM is convening a cross-Agency workshop to identify all of the essential elements to be
included in the recommended FCIP recruitment plans, both in terms of information, as well as
how such information will be used by the Shared Service Centers (SSCs) and the regions and
program offices to ensure proper oversight. The workgroup will also review our current SSC
FCIP Standard Operating Procedures (SOPs) for possible changes and will broadly examine the
bounds of appropriate approaches to FCIP outreach and recruitment activities and how they
interact with the SSC servicing model.




                                               13 

                                                                                          10-P-0112




 OIG Response: Although positive, OARM’s comments are not responsive to the
 recommendation, which was to establish accountability for oversight of job fairs. While it
 would be useful for the Agency to identify all of the essential elements to be included in the
 recommended FCIP recruitment plans, and broadly establish boundaries for appropriate
 recruitment activities, neither action establishes accountability by senior management. We
 believe establishing accountability over job fair plans (outreach, notice, application process)
 is an essential management control. Absent accountability, there is no assurance that changes
 will be implemented and followed. This recommendation remains unresolved pending
 additional information from OARM in the 90-day response regarding actions it plans to take.


Recommendation 3: Verify that SSC oversight processes are sufficient to provide reasonable
assurance that EPA does not engage in prohibited personnel practices in its outreach,
recruiting, and hiring activities.

       The Agency does not believe that the hiring practices at issue here were prohibited
personnel practices. However, recognizing that there is clearly the potential for
misunderstanding, OARM will work with regional senior leadership to strengthen the SSC
oversight role in processing FCIP appointments.

        Given the serious nature of the conclusions reached in this draft report, we respectfully
request that the Acting Inspector General meet with OARM and Region 9 senior management to
get a full briefing on all the facts associated with this case before a final report is prepared. We
believe that the facts of the case combined with an in depth review of Merit System Principles
will lead to a significantly different conclusion. Issuing this report as it stands would do a
serious disservice to both EPA and the OIG.


 OIG Response: Although positive, OARM’s comments are nonresponsive to the
 recommendation to verify that SSC oversight processes provide a reasonable assurance that
 EPA does not engage in prohibited personnel practices in its outreach, recruiting, and hiring
 activities. We believe Region 9’s hiring practices, as exhibited during the July 28-30, 2009,
 hiring event, were prohibited personnel practices – not just a perceived misunderstanding.
 We also agree that OARM, in collaboration with regional senior leadership, should strengthen
 the SSC oversight role in the recruiting and processing of FCIP candidates.

 Regarding the serious nature of the conclusions reached, our draft report portrayed an
 accurate representation of the facts and properly applied the criteria provided in the Merit
 System Principles, resulting in the conclusion that the actions of Region 9’s managers and
 staff gave unauthorized preference and improper advantage to favored candidates – a
 prohibited personnel practice. As requested, OIG senior management and OARM and Region
 9 senior management met on April 14 and 15, 2010, to discuss the facts associated with this
 July 2009 FCIP recruitment. These meetings did not result in a different conclusion or to
 significant changes in the draft report. This recommendation remains unresolved pending
 additional information from OARM in the 90-day response, regarding actions it plans to take.




                                                 14 

                                                                                         10-P-0112



                                                                                       Attachment

Additional Information

1. Application of Veteran’s Preference

        Veterans’ preference rules applied to the selection process; the Region 9 Human
Resources (HR) Office applied veterans’ preference rules to all resumes collected from its
various job fairs and recruitment events and distributed them to selecting officials. A candidate’s
veterans’ preference eligibility would have been noted on resumes distributed to the selecting
officials. However, none of the qualified candidates had veterans’ preference eligibility.


 OIG Response: Our draft report did not render a finding as to whether Region 9 correctly
 applied veterans’ preference rules and our conclusions were not based on whether Region 9
 correctly or incorrectly applied veterans’ preference rules in the FCIP recruitment process.
 As we noted in the report, a Region 9 human resources staff member expressed concern that
 Team Vegas’s approach to the job fair may not allow it to hire the four favored candidates.
 The staff member said she did not:

         …want to risk losing the candidates we want to hire (3 in Water and 1 in the Lab) who
         may get blocked by veterans via USAJOBS if we keep following [Team Vegas’s] path.

 Shortly thereafter, Region 9 decided that to apply applicants had to personally attend the job
 fair on July 28-30. The requirement to attend was imposed by Region 9 on July 26 and
 resulted in limiting the ability of applicants (veterans and nonveterans) to apply.


2. No Violations of Prohibited Personnel Practices

       Title 5 U.S. Code Section 2302(b)(6) prohibits selecting officials from granting
preference or advantage not authorized by law, rule, or regulation to any employee or applicant
for employment for the purpose of improving or injuring prospects of any particular person for
employment.

       No Vacancy Announcement Required: The OIG Draft Report concludes that Region 9
management committed a prohibited personnel practice by giving the three Water Division FCIP
candidates and the one Lab FCIP candidate improper advantage by:

   •	 Inviting them to the upcoming - and as yet unannounced – job fair, and
   •	 Arranging and conducting pre-employment interviews before the job fair was announced.
      (Draft Report, p. 4)

       However, the Draft Report fails to recognize that Executive Order 13162 does not require
the Agency to issue a vacancy announcement in order to recruit and hire FCIP interns. Likewise,
EPA’s HR Policy Bulletin 213-5 explicitly states public notice is not required for vacant FCIP



                                                15 

                                                                                            10-P-0112



positions. In addition, the SSC’s FCIP SOP indicates that a vacancy announcement is not
required for all options. FCIP hiring procedures also allow agencies to conduct interviews
before certificates are issued. It is common for such interviews to be conducted at FCIP Job
Fairs whether certificates will be manually created at or after the job fair or electronically created
after the job fair through the use of after-fair applications in response to a USAJobs vacancy
announcement. The candidates in question had been identified through previous FCIP outreach
events and had been screened and competitively selected for further consideration. Therefore,
they were not pre-selected. Region 9 did not give an improper advantage to the three Water
Division FCIP candidates or violate Merit System Principles by interviewing these candidates
prior to issuing Vacancy Announcement Reg 9-OT-2009-0006.


 OIG Response: Page 1 of the draft report does in fact state that “FCIP vacancies need not be
 publicly announced.” Other tools legitimately available to hiring agencies are not discussed
 in this report. What are discussed are the options and actions of Region 9 in its July 28-30,
 2009, job fair. The Agency must abide by the Merit System Principles and avoid prohibited
 personnel practices at all times.


3. No Improper Travel Reimbursement Preference

       The OIG Draft Report concludes that Region 9 management committed a prohibited
personnel practice by giving the three Water Division FCIP candidates and the one Lab FCIP
candidate improper advantage by:

   •	 Offering to reimburse them for travel expenses to attend the job fair, and
   •	 Authorizing and paying for travel expenses for three candidates’ trips to San Francisco.
      (Draft Report, p. 4)

        As stated in the Draft Report, Title 5 of U.S. Code § 5706(b) authorizes agencies to pay
travel expenses for pre-employment interviews. The record shows only three individuals needed
travel reimbursements to attend the July job fair/hiring event. These three candidates were
traveling to the event to participate in final pre-employment interviews. All other attendees were
either local or were going to be in the San Francisco Bay Area for other matters.

 OIG Response: Our draft report states that Region 9 management engaged in a prohibited
 personnel practice by giving four candidates improper advantages. Offering, authorizing, and
 paying travel expenses to favored candidates – and not to other candidates who contacted the
 Region 9 office inquiring about attending the job fair – constitutes an improper advantage. The
 Region notified the four prospective candidates about the job fair far in advance of the event
 and then took measures to ensure their presence at the job fair. Senior Region leadership was
 specifically told on July 27 that the Region was paying for these candidates to attend the job
 fair. By failing to follow Team Vegas’s advice to publicly distribute the job fair flyer no later
 than July 10, and instead publicly announcing the job fair only days before the event, the
 Region virtually guaranteed that all the other attendees would be local.



                                                 16 

                                                                                  10-P-0112


                                                                              Appendix C

                                   Distribution
Office of the Administrator
Assistant Administrator for Administration and Resources Management
Regional Administrator, Region 9
Deputy Regional Administrator, Region 9
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Acting Assistant Regional Administrator, Management & Technical Services Division, Region 9
Deputy Director, Management & Technical Services Division, Region 9
Acting Director, Office of Human Resources, Office of Administration and Resources
       Management
Associate Director, Office of Human Resources, Office of Administration and Resources
       Management
Director, Team Vegas, Office of Administration and Resources Management
Chief, Regional Operations Branch, Team Vegas, Office of Administration and Resources
       Management
Audit Follow-up Coordinator, Region 9
Audit Follow-up Coordinator, Office of Administration and Resources Management
Acting Inspector General




                                            17 

